Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  QUESTIONABLE BILLING BY
 SKILLED NURSING FACILITIES
         .




                    Daniel R. Levinson
                     Inspector General

                      December 2010
                     OEI-02-09-00202
           E X E C U T I V E                   S U M M A R Y


                    OBJECTIVES
                    1. To determine the extent to which billing by skilled nursing facilities
                       (SNF) changed from 2006 to 2008.
                    2. To determine the extent to which billing varied by type of SNF
                       ownership in 2008.
                    3. To identify SNFs that had questionable billing in 2008.


                    BACKGROUND
                    The Part A SNF benefit covers skilled nursing care, therapy services,
                    and other services for Medicare beneficiaries. In recent years, the Office
                    of Inspector General (OIG) has identified a number of problems with
                    SNF billing for Medicare Part A payments. Notably, an OIG report
                    found that 26 percent of claims submitted by SNFs were not supported
                    by the medical record, representing over $500 million in potential
                    overpayments. Further, the Medicare Payment Advisory Commission
                    has raised concerns about SNFs’ improperly billing for therapy to obtain
                    additional Medicare payments.

                    Medicare pays SNFs under a prospective payment system. Under this
                    system, SNFs classify each beneficiary into a group based on his or her
                    care and resource needs. These groups are called resource utilization
                    groups (RUGs), and each RUG has a different Medicare per diem
                    payment rate. Medicare classifies RUGs into eight distinct categories.
                    Two of the categories are for beneficiaries who need therapy. The
                    remaining six categories are for beneficiaries who require very little or
                    no therapy. Medicare payment rates are generally higher for therapy
                    RUGs than for nontherapy RUGs.

                    In addition, Medicare generally pays more for higher levels of therapy.
                    The SNF categorizes the beneficiary into one of five therapy levels,
                    based primarily on the number of minutes of therapy provided. The
                    beneficiaries who require the highest level of therapy are categorized
                    into ultra high therapy RUGs, which generally have the highest per
                    diem rates.

                    RUGs are further divided by the amount of assistance a beneficiary
                    needs with certain activities of daily living (ADL), such as eating. If a
                    beneficiary needs high levels of assistance, he or she is categorized into
                    a RUG with high ADL scores, whereas a beneficiary who needs less
                    assistance is categorized into a RUG with low or medium ADL scores.


OEI-02-09-00202     QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S   i
    E X E C U T I V E         S U        M M A R Y


                  Medicare pays higher rates for RUGs with high ADL scores than for
                  RUGs with lower ADL scores.

                  We based this study on an analysis of Medicare Part A claims from
                  2006 and 2008 and on data from the Online Survey, Certification and
                  Reporting system.


                  FINDINGS
                  From 2006 to 2008, SNFs increasingly billed for higher paying RUGs,
                  even though beneficiary characteristics remained largely
                  unchanged. From 2006 to 2008, the percentage of RUGs for ultra high
                  therapy increased from 17 to 28 percent. The percentage of RUGs with
                  high ADL scores increased from 30 percent in 2006 to
                  34 percent in 2008. Even though SNFs significantly increased their
                  billing for these higher paying RUGs, beneficiaries’ ages and diagnoses
                  at admission were largely unchanged from 2006 to 2008.
                  For-profit SNFs were far more likely than nonprofit or government
                  SNFs to bill for higher paying RUGs. In total, 32 percent of RUGs
                  from for-profit SNFs were for ultra high therapy, compared to
                  18 percent from nonprofit SNFs and 13 percent from government SNFs.
                  In addition, for-profit SNFs had a higher use of RUGs with high ADL
                  scores than both for-profit and government SNFs. For-profit SNFs also
                  had longer lengths of stay, on average, compared to those of the other
                  types of SNFs. The differences among types of SNF ownership did not
                  appear to be the result of differences in SNFs’ beneficiary populations.
                  Further, for-profit SNFs that were owned by large chains were the most
                  likely to bill for higher paying RUGs.
                  A number of SNFs had questionable billing in 2008. Some SNFs
                  billed much more frequently for higher paying RUGs than other SNFs.
                  Some SNFs also had unusually long average lengths of stay compared to
                  those of other SNFs. These billing patterns indicate that certain SNFs
                  may be routinely placing beneficiaries into higher paying RUGs
                  regardless of the beneficiaries’ care and resource needs or keeping
                  beneficiaries in Part A stays longer than necessary. We identified 348
                  SNFs that were in the top 1 percent for the use of ultra high therapy,
                  RUGs with high ADL scores, or long average lengths of stay.




OEI-02-09-00202   QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S   ii
    E X E C U T I V E         S U        M M A R Y




                  RECOMMENDATIONS
                  Taken together, these findings raise concerns about the potentially
                  inappropriate use of higher paying RUGs, particularly ultra high
                  therapy. The findings also indicate that the current payment system
                  provides incentives to SNFs to bill for ultra high therapy and for high
                  levels of assistance when these levels of care may not be needed. We
                  recognize that the Centers for Medicare & Medicaid Services (CMS) is
                  making several changes to the RUGs in fiscal year 2011. However, more
                  needs to be done to reduce the potentially inappropriate and significant
                  increases in payments for ultra high therapy and other higher paying
                  RUGs. Based on these findings, we recommend that CMS:
                  Monitor overall payments to SNFs and adjust rates, if necessary.
                  As CMS makes changes to the number of RUGs, it should vigilantly
                  monitor overall payments to SNFs and adjust RUG rates annually, if
                  necessary, to ensure that the changes do not significantly increase overall
                  payments.
                  Change the current method for determining how much therapy is
                  needed to ensure appropriate payments. The amount of therapy that
                  the SNF provides to the beneficiary during the look-back period largely
                  determines the amount that Medicare pays the SNF. CMS should
                  consider several options to ensure that the amount of therapy paid for
                  by Medicare accurately reflects beneficiaries’ needs. CMS should
                  consider requiring each SNF to use the beneficiary’s hospital diagnosis
                  and other information from the hospital stay to better predict the
                  beneficiary’s therapy needs. In addition, CMS should consider requiring
                  that therapists with no financial relationship to the SNF determine the
                  amount of therapy needed throughout a beneficiary’s stay. CMS should
                  also consider developing guidance that specifies the types of patients for
                  whom each level of therapy, including ultra high therapy, is
                  appropriate.
                  Strengthen monitoring of SNFs that are billing for higher paying
                  RUGs. CMS should instruct its contractors to monitor SNFs’ use of
                  higher paying RUGs using the indicators discussed in this report. CMS
                  should develop thresholds for the indicators and instruct its contractors
                  to conduct additional reviews of SNFs that exceed them. If SNFs from a
                  particular chain frequently exceed the thresholds, then additional
                  reviews should be conducted of the other SNFs in that chain.



OEI-02-09-00202   QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S   iii
    E X E C U T I V E         S U        M M A R Y


                  Follow up on the SNFs identified as having questionable billing.
                  In a separate memorandum, we will refer the SNFs that we identified
                  as having questionable billing to CMS for appropriate action.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with three of the four recommendations. In response to
                  our first recommendation, to monitor overall payments to SNFs, CMS
                  concurred and stated that it would assess the impact of the recent
                  changes on overall SNF payments as data became available and would
                  expect to recalibrate RUG rates in future years, as appropriate.
                  In response to our second recommendation, to change the current
                  method for determining how much therapy is needed, CMS did not
                  concur but stated that it is committed to pursuing additional
                  improvements to the SNF payment system. CMS noted several
                  concerns with relying on information from the beneficiary’s hospital
                  stay to determine the beneficiary’s therapy needs during a SNF stay.

                  In response to our third recommendation, to strengthen monitoring of
                  SNFs, CMS concurred and stated that it would determine whether
                  additional safeguards shall be put in place by the Medicare contractors
                  to target their efforts.

                  Finally, in response to our fourth recommendation, to follow up on the
                  SNFs identified as having questionable billing, CMS concurred and
                  stated that it would forward the list of SNFs with questionable billing to
                  the appropriate contractors.

                  While we recognize CMS’s intent to monitor overall payments to SNFs,
                  we remain concerned about adjusting rates in a timely manner. We also
                  recognize that CMS made a number of changes to the SNF payment
                  system in FY 2010 and that these changes should improve the accuracy
                  of payments. However, we remain concerned that the payment system
                  continues to provide incentives to SNFs to bill for more therapy than is
                  needed, and we strongly encourage CMS to pursue the options we
                  recommended to reduce this vulnerability.




OEI-02-09-00202   QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S   iv
   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 9
                   From 2006 to 2008, SNFs increasingly billed for higher paying
                   RUGs, even though beneficiary characteristics remained largely
                   unchanged . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                   For-profit SNFs were far more likely than nonprofit or
                   government SNFs to bill for higher paying RUGs . . . . . . . . . . . . . 11

                   A number of SNFs had questionable billing in 2008 . . . . . . . . . . . 14



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                   Agency Comments and Office of Inspector General Response . . . 17



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                    A: Centers for Medicare & Medicaid Services Timeframes for
                       Conducting Beneficiary Assessments . . . . . . . . . . . . . . . . . . . 19

                   B: Description of the 53 Resource Utilization Groups . . . . . . . . . 20

                   C: The Distribution of Beneficiaries’ Ages and Diagnoses . . . . . . 22

                   D: Use of Ultra High Therapy by Age and Diagnosis . . . . . . . . . . 24

                   E: Use of Ultra High Therapy by Age and Diagnosis, for
                      Each Type of SNF Ownership . . . . . . . . . . . . . . . . . . . . . . . . . 25

                   F: Billing by Nonprofit Skilled Nursing Facilities . . . . . . . . . . . . 26

                   G: Distribution of Three Billing Measures Among Skilled
                      Nursing Facilities, by Quartile. . . . . . . . . . . . . . . . . . . . . . . . . 27

                   H: Centers for Medicare & Medicaid Services Comments . . . . . . 28


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
           I N T R O D U C T I O N



                    OBJECTIVES
                    1. To determine the extent to which billing by skilled nursing facilities
                       (SNF) changed from 2006 to 2008.
                    2. To determine the extent to which billing varied by type of SNF
                       ownership in 2008.
                    3. To identify SNFs with questionable billing in 2008.


                    BACKGROUND
                    In recent years, the Office of Inspector General (OIG) has identified a
                    number of problems with SNF billing for Medicare Part A payments.
                    Notably, an OIG report found that 26 percent of claims submitted by SNFs
                    in fiscal year (FY) 2002 were not supported by the medical record,
                    representing $542 million in potential overpayments. 1 Additionally, OIG
                    audits of five SNFs found that 20 to 94 percent of sampled claims from
                    2002 through 2004 were medically unnecessary, were submitted at an
                    inappropriate payment rate, or were insufficiently documented. 2 OIG
                    estimated that overpayments to these SNFs totaled nearly $2.5 million.

                    Further, the Medicare Payment Advisory Commission (MedPAC) has
                    raised concerns about SNFs’ improperly billing for therapy to obtain
                    additional Medicare payments. Specifically, MedPAC noted that the
                    current system “encourages SNFs to furnish therapy, even when it is of
                    little or no benefit.” 3 In addition, staff at the Centers for Medicare &
                    Medicaid Services (CMS) noted that some facilities, to increase payments,
                    may be inappropriately overstating a beneficiary’s need for assistance with
                    certain activities of daily living (ADL). Staff also noted that certain SNFs
                    might be keeping beneficiaries in Part A stays longer than necessary.




                    1 OIG,   A Review of Nursing Facility Resource Utilization Groups, OEI-02-02-00830,
                    February 2006.
                    2 OIG, Review of Rehabilitation Services at Gulf Health Care, Texas City, Texas,
                    A-06-03-00078, July 2007; Review of Rehabilitation Services at Skilled Nursing Facilities –
                    Avante at Leesburg, A-06-06-00107, May 2007; Review of Skilled Services at Heartland Health
                    Care Center of Bedford, Texas, A-06-07-00045, April 2008; Review of Skilled Services at Four
                    Seasons Nursing Center of Durant, Oklahoma, A-06-07-00046, May 2008; and Review of
                    Skilled Services at Regent Care Center of Laredo, Texas, A-06-06-00047, August 2006.
                    3 MedPAC,    Report to Congress: Promoting Greater Efficiency in Medicare, June 2007,
                    ch. 8, p. 192. Accessed at http://www.medpac.gov/chapters/Jun07_Ch08.pdf on
                    May 29, 2009.



OEI-02-09-00202     QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S              1
    I N T R O D   U C T      I O N


                   This study is the first of a three-part series that focuses on Medicare
                   Part A payments to SNFs. The other two studies will be based on medical
                   record reviews. One study will determine the extent to which SNF claims
                   meet Medicare requirements. The other will assess the extent to which
                   SNFs meet certain Federal requirements governing the quality of care
                   provided to beneficiaries.4
                   Medicare Payments to SNFs
                   The Part A SNF benefit covers skilled nursing care, rehabilitation services
                   (i.e., physical, occupational, and speech therapy), and other services for up
                   to 100 days during any spell of illness.5 To qualify, the beneficiary must
                   need skilled services daily in an inpatient setting and must require the
                   skills of technical or professional personnel to provide these services.6
                   SNFs can be for-profit, nonprofit, or government owned. For-profit and
                   nonprofit SNFs can be part of a chain or can be independently owned.

                   Medicare pays SNFs under a prospective payment system. Throughout
                   beneficiaries’ stays, SNFs classify them into groups based on their care
                   and resource needs. These groups are called resource utilization groups
                   (RUGs). SNFs use an assessment known as the Minimum Data Set
                   (MDS) to classify beneficiaries into RUGs.7 The MDS is a standardized
                   tool that assesses the beneficiary’s clinical condition, functional status,
                   and expected use of services.

                   SNFs must conduct assessments for payment purposes on or about the 5th,
                   14th, 30th, 60th, and 90th days of a Part A stay, as well on certain other
                   occasions to account for changes in patient care needs.8 Accordingly, if a
                   beneficiary has a 100-day Part A stay, he or she will have at least five
                   assessments. For each assessment, the beneficiary may be categorized
                   into a different RUG.



                  4 OIG, Medicare Part A Payments to Skilled Nursing Facilities, OEI-02-09-00200, and
                   Medicare Requirements for Quality of Care in Skilled Nursing Facilities, OEI-02-09-00201,
                   forthcoming. 

                  5 Social Security Act, § 1812(a)(2)(A), 42 U.S.C. § 1395d(a)(2)(A). 

                  6 42 CFR §§ 409.31(b)(1) and (3) and 409.31(a)(2).

                  7 The MDS is part of CMS’s Resident Assessment Instrument (RAI). CMS, Revised 

                   Long-Term Care Facility Resident Assessment Instrument User’s Manual Version 2.0
                   (RAI User’s Manual), Dec. 2002, rev. Dec. 2005, §§ 1.2 and 1.3. 

                  8 42 CFR § 413.343(b) and  RAI User’s Manual, § 2.5. CMS requires other comprehensive 

                   resident assessments at certain times as a condition of participation, which may be combined
                   with MDS payment assessments when the timeframes coincide. 42 CFR § 483.20 and RAI
                   User’s Manual, § 2.1.



OEI-02-09-00202    QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S               2
    I N T R O D   U C T        I O N


                   The SNF assesses the beneficiary during what is called the look-back
                   period. The length of the look-back period varies depending upon what the
                   SNF is assessing. 9 For example, a 7-day look-back period is used to assess
                   how much therapy a beneficiary was provided. 10 CMS specifies
                   timeframes for the last day of the look-back period for each type of
                   assessment. For example, CMS states that for a 14-day assessment, the
                   last day of the look-back period must occur on the 11th through the
                   14th days of the beneficiary’s stay.
                   Under certain circumstances, CMS allows SNFs to extend the last day of
                   the look-back period. Such extensions are known as grace periods.11 CMS
                   states that grace periods can be used, for example, to more fully capture
                   therapy minutes or other treatments. 12 However, CMS emphasizes that
                   grace periods “should be used sparingly” and that SNFs may be subject to
                   review if they use grace periods routinely. 13 SNFs have an incentive to
                   use a grace period for the 5-day assessment because it allows them to
                   count more days of therapy, which may result in increased payments. 14
                   See Appendix A for additional information on the look-back periods and
                   grace periods for each type of assessment.

                   Types of RUGs. There are 53 RUGs, and each RUG has a different
                   Medicare per diem payment rate. Medicare groups the 53 RUGs into
                   8 distinct categories. 15 Two categories—Rehabilitation and Rehabilitation
                   Plus Extensive Services—are for beneficiaries who need physical therapy,
                   speech therapy, or occupational therapy, typically after recovering from an
                   episode such as a hip fracture or a stroke.

                   The remaining six categories are for beneficiaries who require very little
                   or no therapy. These categories are Extensive Services, Special Care,
                   Clinically Complex, Reduced Physical Function, Impaired Cognition, and


                  9 The most frequent look-back period is 7 days, although some are 14 days and others are
                   30 days. RAI User’s Manual, ch. 3, p. 29.
                  10 Ibid., p. 185.
                  11 Ibid., § 2.5.
                  12 Ibid.
                  13 Ibid.
                  14 The highest paying RUGs require that beneficiaries receive at least 5 days of therapy during
                   the look-back period. For 5-day assessments, the look-back period for therapy may be shorter
                   than 7 days because the SNF cannot include days prior to the date of admission. If a SNF does
                   not use the grace period for the 5-day assessment, the look-back period is up to 5 days long.
                   However, if a SNF uses a grace period, the look-back period is 6 or 7 days long. In contrast, for
                   later assessments, the look-back period for therapy is always 7 days.
                  15 CMS,    RAI User’s Manual, §§ 6.3, 6.4, and 6.6.



OEI-02-09-00202    QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                  3
    I N T R O D   U C T      I O N


                   Behavior Problems. In this report, we refer to the RUGs in the two
                   therapy categories as therapy RUGs. We refer to the RUGs in the
                   remaining six categories as nontherapy RUGs. See Appendix B for
                   information about all 53 RUGs.

                   Medicare payments for therapy RUGs. Medicare payment rates for therapy
                   RUGs are almost twice as high, on average, as the rates for nontherapy
                   RUGs. 16 In addition, Medicare generally pays more for higher levels of
                   therapy.

                   The therapy RUGs are divided into five levels of therapy: ultra high, very
                   high, high, medium, or low. The SNF categorizes the beneficiary into one
                   of the five therapy levels based primarily on the number of minutes of
                   therapy provided during the look-back period. 17 For example, if the
                   beneficiary received 45 minutes of therapy during the
                   look-back period, he or she is categorized into a low-therapy RUG, whereas
                   if the beneficiary received 720 minutes, he or she is categorized into an
                   ultra high therapy RUG.

                   Medicare generally pays the most for ultra high therapy. As shown in
                   Table 1, the average per diem rate for the ultra high therapy RUGs is
                   $511, compared to $283 for low-therapy RUGs.


                        Table 1: Average Payment Rates for Each Level of Therapy, 2008


                                                                              Number of Minutes                    Average Per
                        Level of Therapy                                           per Week of                   Diem Payment
                                                                                        Therapy               for RUGs in 2008

                        Ultra high therapy                                                      720 or more              $511
                        Very high therapy                                                        500 to 719              $407
                        High therapy                                                             325 to 499              $356
                        Medium therapy                                                           150 to 324              $362
                        Low therapy                                                               45 to 149              $283
                        Source: OIG analysis of FY 2008 unadjusted per diem urban rates.




                  16 OIG analysis of FY 2008 unadjusted per diem urban rates. There is an urban and a rural
                   payment rate for each RUG. The urban payment rate is lower than the rural rate for the
                   therapy RUGs. See 72 Fed. Reg. 43412, 43418-19 (Aug. 3, 2007).
                  17 CMS,   RAI User’s Manual, § 6.6. In addition to applying the minutes of therapy provided,
                   SNFs must apply other criteria to categorize a beneficiary into a therapy RUG, such as how
                   often certain nursing services are provided.



OEI-02-09-00202    QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                                4
    I N T R O D   U C T      I O N


                   Medicare payments for RUGs by ADL scores. RUGs are further divided by
                   the amount of assistance a beneficiary needs with certain ADLs. 18 As part
                   of the assessment, SNFs assign each beneficiary an ADL score based on
                   how much assistance he or she needs with certain daily activities, such as
                   eating. If a beneficiary needs high levels of assistance, he or she is
                   categorized into a RUG with high ADL scores, whereas a beneficiary who
                   needs less assistance is categorized into a RUG with low or medium ADL
                   scores. 19
                   Medicare pays higher rates for RUGs with high ADL scores than for RUGs
                   with lower ADL scores. On average, the per diem rate for RUGs with high
                   ADL scores is $36 more than for RUGs with low ADL scores. 20
                   Changes to Medicare payments to SNFs. The prospective payment system
                   for SNFs has changed in several ways since its inception. Over time, CMS
                   has changed the number of RUGs, as well as the payment rates for RUGs.
                   In FY 2006, CMS increased the number of RUGs from 44 to 53. These
                   changes were intended to be budget neutral and to not affect overall
                   payments to SNFs. However, CMS found that payments to SNFs in
                   FY 2009 were an estimated $780 million more than intended. CMS did
                   not respond to this increase in overall payments until FY 2010, when it
                   decreased rates for certain RUGs.

                   In FY 2011, CMS will increase the number of RUGs from 53 to 66, and
                   again CMS has stated that it intends these changes to be budget neutral.
                   In addition, CMS will change how SNFs account for therapy that is
                   provided to beneficiaries concurrently and in group settings. SNFs,
                   however, will still base the amount of therapy needed on the amount
                   provided during the look-back period.
                   Safeguarding Medicare Payments to SNFs
                   CMS relies on different types of contractors to prevent and reduce fraud,
                   waste, and abuse in SNF billing for Medicare Part A payments. Certain
                   contractors are responsible for processing and paying Part A claims. At
                   their discretion, these contractors may conduct targeted medical reviews


                  18 The one exception is the Extensive Services category. The RUGs in this category are not

                   grouped by the amount of assistance a beneficiary needs with daily activities.
                  19 Each RUG is associated with a range of ADL scores. In addition, each therapy level and
                   nontherapy category typically includes three types of RUGs: RUGs associated with a range of
                   high ADL scores, medium ADL scores, and low ADL scores. In this report, we refer to these
                   three types as RUGs with high, medium, and low ADL scores.
                  20 OIG analysis of FY 2008 unadjusted per diem urban rates.




OEI-02-09-00202    QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                  5
    I N T R O D   U C T      I O N


                   of SNF claims to prevent improper payments. Other contractors are
                   responsible for identifying fraud and abuse and for referring cases to law
                   enforcement, when appropriate. Finally, another group of contractors is
                   responsible for identifying and recouping any overpayments made to
                   SNFs.


                   METHODOLOGY
                   We based this study on data from two sources: (1) all paid Part A SNF
                   claims from 2006 and 2008; and (2) data from the Online Survey,
                   Certification and Reporting (OSCAR) system. We used these data to
                   determine the extent to which SNF billing changed from 2006 to 2008 and
                   varied by type of SNF ownership in 2008. We also used the data to
                   identify SNFs with questionable billing in 2008.
                   Analysis of SNF Billing by Year
                   We identified the universe of paid Part A SNF claim line items for
                   2006 and 2008 from CMS’s National Claims History File. 21 We based our
                   analysis on the RUGs that SNFs submitted on these claims. 22 We
                   analyzed the RUGs to determine the extent to which SNF billing changed
                   from 2006 to 2008. For each year, we determined the distribution of the
                   RUGs and then compared the 2 years. In addition, we assessed whether
                   the average length of stay changed from 2006 to 2008.

                   We paid particular attention to changes in higher paying RUGs, which
                   include RUGs for ultra high therapy and RUGs with high ADL scores. We
                   combined the data from the two therapy categories—Rehabilitation and
                   Rehabilitation Plus Extensive Services—to determine how often SNFs
                   billed for each of the different therapy levels: ultra high, very high, high,
                   medium, and low. In addition, we looked at how often SNFs billed for
                   RUGs with high ADL scores within each therapy level and each
                   nontherapy category. We also assessed whether SNFs’ use of grace
                   periods changed from 2006 to 2008.

                   Next, we determined whether key characteristics of beneficiaries changed
                   between 2006 and 2008. We looked specifically at whether the
                   distribution of beneficiaries’ ages and admitting diagnoses changed from
                   2006 to 2008. We also looked at changes in the use of RUGs for ultra high


                  21 In this report, we refer to claim line items as claims.
                  22 We based our analysis on the RUG billed by the SNF for each assessment. This RUG may
                   have spanned two claims.



OEI-02-09-00202    QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S          6
    I N T R O D   U C T      I O N


                   therapy and RUGs with high ADL scores for each age group and for each
                   of the top 20 admitting diagnoses. 23
                   Analysis of Billing by Type of SNF Ownership
                   We used OSCAR data to determine whether each SNF is for-profit,
                   nonprofit, or government owned. We then assessed whether the
                   percentage of RUGs for ultra high therapy, the percentage of RUGs with
                   high ADL scores, and the average length of stay varied by type of
                   ownership.
                   Next, we determined whether the variation in billing was associated with
                   differences in SNFs’ beneficiary populations. For this analysis, we
                   assessed whether the distribution of the beneficiaries’ ages and admitting
                   diagnoses varied by type of ownership. We also looked at whether the
                   percentage of RUGs for ultra high therapy, the percentage of RUGs with
                   high ADL scores, and the average length of stay varied by type of
                   ownership for each age group and for each of the top 20 admitting
                   diagnoses.
                   In addition, we compared SNF billing among SNFs owned by large chains,
                   those owned by small chains, and those that are independently owned.
                   We conducted this analysis for for-profit SNFs and for nonprofit SNFs.
                   We identified the SNFs that were part of a chain using OSCAR data. 24
                   We considered a chain to be large if it owned at least 100 SNFs and small
                   if it owned fewer than 100 SNFs. We also assessed the extent to which
                   billing changed by the SNFs acquired by large chains between 2006 and
                   2008. For each chain, we compared the billing by the newly acquired
                   SNFs for the 6 months before acquisition to the same SNFs’ billing for the
                   6 months after acquisition.




                  23 We defined the age groups as less than 65 years of age, 65 up to 70 years, 70 up to 75 years,
                   75 up to 80 years, 80 up to 85 years, 85 up to 90 years, 90 up to 95 years, and 95 years of age or
                   more. The admitting diagnosis on the claim is based on the International Classification of
                   Diseases, Ninth Revision, Clinical Modification (ICD-9), which is the official system for
                   assigning codes to diagnoses and procedures. We used the first three characters of the ICD-9
                   code to obtain the beneficiary’s admitting diagnosis.
                  24 The OSCAR data indicate whether a SNF is owned by a multifacility organization, which we
                   refer to as a chain. Other available data sources were used to determine the dates that SNFs
                   were acquired by chains.



OEI-02-09-00202    QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                   7
    I N T R O D   U C T      I O N


                   Identification of SNFs With Questionable Billing
                   We based this analysis on the 12,286 SNFs that had at least 50 Part A
                   stays in 2008. 25 For each SNF, we determined: (1) the percentage of
                   RUGs for ultra high therapy, (2) the percentage of RUGs with high ADL
                   scores, and (3) the average length of stay. We considered a SNF to have
                   questionable billing if it was in the top 1 percent for any of the three
                   measures. We also highlighted the SNFs with questionable billing on
                   more than one of these measures.

                   Lastly, we determined whether these SNFs had beneficiary populations
                   that indicated a need for a particularly high use of higher paying RUGs or
                   for longer lengths of stay. To conduct this analysis, we calculated SNFs’
                   expected use of these RUGs based on national averages for each age group
                   and admitting diagnosis. If their actual use was at least 50 percent higher
                   than their expected use, we concluded that their questionable billing could
                   not be explained by differences in their beneficiary populations. We did
                   the same analysis for length of stay.
                   Limitations
                   This study assesses SNF billing based on an analysis of Medicare
                   Part A claims. It does not, however, determine whether the claims were
                   appropriate. A companion study, based on a medical review, will address
                   this question and determine whether Part A SNF claims met Medicare
                   coverage requirements.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspections approved by the Council of the Inspectors General on Integrity
                   and Efficiency.




                  25 We established a minimum of 50 Part A stays per SNF to ensure the reliability of the

                   measures. For SNFs with fewer Part A stays, changes in the characteristics of a small number
                   of Part A stays could have a large effect on the measures, making the measures less reliable.



OEI-02-09-00202    QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S               8
    F   I N D I N G     S
           F I N D I N G S

                                                                  Medicare pays SNFs different
          From 2006 to 2008, SNFs increasingly billed for
                                                                  rates for different RUGs.
           higher paying RUGs, even though beneficiary
                                                                  Ultra high therapy RUGs
             characteristics remained largely unchanged           generally have the highest
                                                                  reimbursement rates of all the
                       RUGs. RUGs for high levels of assistance with daily activities also have
                       high rates. From 2006 to 2008, SNFs significantly increased their use of
                       both of these types of RUGs. At the same time, the characteristics of the
                       beneficiaries remained largely unchanged. 26
                       Billing for ultra high therapy increased substantially from 2006 to 2008
                       In 2006, 17 percent of all RUGs were for ultra high therapy. In 2008, this
                       share increased to 28 percent. Over the same period, SNFs’ use of the
                       other levels of therapy—very high, high, medium, and low—decreased or
                       stayed about the same. For example, SNFs’ use of high therapy decreased
                       from 16 percent in 2006 to 11 percent in 2008. Similarly, the percentage
                       of RUGs in the nontherapy categories decreased from 16 percent in
                       2006 to 12 percent in 2008. See Chart 1.


                            Chart 1: Changes in SNF Billing From 2006 to 2008




                            Source: OIG analysis of Part A SNF claims, 2010.




                       26 In addition, there were only slight changes in the total number of Part A stays and the
                       average length of stay during this time. The total number of stays increased from
                       2.4 million in 2006 to 2.5 million in 2008, and the average length of stay increased from
                       27.3 days to 27.6 days.



OEI-02-09-00202        QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                   9
    F   I N D I N G    S


                      The shift to ultra high therapy RUGs caused a substantial increase in
                      Part A payments to SNFs. Overall, payments increased by
                      $4.3 billion, or 18 percent, from 2006 to 2008. As shown in Table 2,
                      payments to SNFs for ultra high therapy rose from $5.7 billion in 2006 to
                      $10.7 billion in 2008, an increase of nearly 90 percent. At the same time,
                      payments for all other levels of therapy decreased by 2 percent and
                      payments for nontherapy RUGs decreased by 19 percent, for a total
                      decrease of nearly three-quarters of a billion dollars.



                            Table 2: Changes in Medicare Payments From 2006 to 2008

                                                                                Total Medicare          Total Medicare
                                                                                     Payments                Payments      Difference in
                            RUGs                                                         2006                    2008         Payments
                            Ultra high therapy RUGs                                      $5.7 billion      $10.7 billion    $5.04 billion
                            Other therapy RUGs                                         $15.6 billion       $15.3 billion   -$0.25 billion
                            Nontherapy RUGs                                              $2.5 billion       $2.0 billion   -$0.46 billion
                              Total*                                                   $23.8 billion       $28.1 billion    $4.32 billion
                           * Medicare payments in 2008 do not sum to total because of rounding.
                           Source: OIG analysis of Part A SNF claims, 2010.



                      The shift to ultra high therapy RUGs was also associated with an
                      increased use of grace periods. SNFs’ use of grace periods increased
                      substantially, from 51 percent in 2006 to 61 percent in 2008 for 5-day
                      assessments. Although CMS guidance states that grace periods should “be
                      used sparingly,” SNFs used grace periods almost universally for ultra high
                      therapy RUGs. In 2008, for 5-day assessments, SNFs used grace periods
                      for 96 percent of ultra high therapy RUGs, compared to 55 percent for
                      other therapy RUGs and 20 percent for nontherapy RUGs. SNFs likely
                      used grace periods for ultra high therapy RUGs because the grace periods
                      allow them to count more days of therapy when determining the RUG.

                      Billing for high levels of assistance with daily activities also increased from
                      2006 to 2008
                      SNFs receive higher reimbursement rates for RUGs with high ADL scores
                      than for those with lower ADL scores. In 2006, 30 percent of RUGs had
                      high ADL scores, compared to 34 percent of RUGs in 2008. Within each
                      therapy level, SNFs’ use of RUGs with high ADL scores increased by at




OEI-02-09-00202       QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                                  10
    F   I N D I N G       S


                         least 3 percentage points. This same increase was seen in all but one of
                         the nontherapy categories. 27
                         The shift toward higher paying RUGs did not appear to be the result of
                         changes in beneficiary characteristics
                         Even though SNFs significantly increased their billing for higher paying
                         RUGs, beneficiaries’ ages and diagnoses at admission were largely
                         unchanged from 2006 to 2008. The average age of beneficiaries changed
                         minimally, from 79.9 to 79.8 years of age, and the distribution of
                         beneficiaries’ ages also did not change significantly during this time.
                         Additionally, the top 20 admitting diagnoses of beneficiaries were identical
                         and accounted for over half of all admissions in both years. The
                         distribution of the top 20 diagnoses also did not differ substantially. 28 See
                         Appendix C for more detailed information about beneficiaries’ ages and
                         diagnoses in 2006 and 2008.

                         Moreover, SNFs increased their billing for higher paying RUGs regardless
                         of the beneficiaries’ ages or diagnoses. Specifically, SNFs increased their
                         billing for ultra high therapy from 2006 to 2008 by at least 10 percentage
                         points for each age group and for each of the top 20 admitting diagnoses.
                         See Appendix D for the increase from 2006 to 2008 by age group and
                         diagnosis. Similarly, SNFs increased their billing for RUGs with high
                         ADL scores from 2006 to 2008 by at least 2 percentage points for each age
                         group and for all but 1 of the top 20 admitting diagnoses.


                                                                  In 2008, for-profit SNFs accounted
             For-profit SNFs were far more likely than
                                                                  for 69 percent of all SNFs while
                        nonprofit or government SNFs
                                                                  nonprofit and government SNFs
                         to bill for higher paying RUGs           accounted for 27 percent and
                         5 percent, respectively. 29 The for-profit SNFs were more likely to bill for
                         ultra high therapy and for RUGs with high ADL scores than the nonprofit
                         and government SNFs.



                        27 SNFs’ use of RUGs with high ADL scores in the Impaired Cognition category decreased by
                         1 percentage point. Also, we excluded the Extensive Services category from this analysis
                         because the RUGs in this category are not grouped by ADL scores.
                        28 The largest change from 2006 to 2008 was a 5-percentage point increase in the use of the
                         “Care Involving Use of Rehabilitation Procedures” diagnosis (ICD-9 code V57). Compared to
                         the other top 20 diagnoses, this diagnosis was not associated with a particularly high use of
                         ultra high therapy or RUGs with high ADL scores.
                        29 Totals do not sum to 100 percent because of rounding.




OEI-02-09-00202          QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                 11
    F   I N D I N G    S


                      As shown in Chart 2, 32 percent of RUGs from for-profit SNFs were for
                      ultra high therapy, compared to 18 percent from nonprofit SNFs and
                      13 percent from government SNFs. In addition, 35 percent of all RUGs
                      from for-profit SNFs had high ADL scores, compared to
                      31 percent of RUGs from nonprofit and from government SNFs.


                      Chart 2: Billing for Ultra High Therapy and RUGs With High ADL Scores, by
                      Type of SNF Ownership, 2008




                             Source: OIG analysis of Part A SNF claims, 2010.


                      For-profit SNFs also had longer lengths of stay, on average, compared to
                      those of the other types of SNFs. The average length of stay in for-profit
                      SNFs was 29 days, compared to 23 days in nonprofit SNFs and 25 days in
                      government SNFs.

                      The differences among types of ownership did not appear to be the result
                      of differences in SNFs’ beneficiary populations. In fact, key beneficiary
                      characteristics—specifically, the distributions of beneficiaries’ ages, as
                      well as beneficiaries’ diagnoses at admission—were similar across the
                      three types of ownership.

                      Moreover, for-profit SNFs’ use of ultra high therapy RUGs was higher
                      than nonprofit and government SNFs’ use of these RUGs for each age
                      group and for each of the top 20 admitting diagnoses. See Appendix E for
                      the difference by type of ownership. For-profit SNFs’ use of RUGs with
                      high ADL scores was also higher in each age group and in 16 of the top 20
                      admitting diagnoses.


OEI-02-09-00202       QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S   12
    F   I N D I N G    S


                      For-profit SNFs that were owned by large chains were the most likely to bill for
                      higher paying RUGs
                      Among the 10,303 for-profit SNFs, about 20 percent were owned by
                      10 large chains, nearly half were owned by smaller chains, and the
                      remaining were independently owned. As shown in Table 3, for-profit
                      SNFs owned by large chains were more likely than other for-profit SNFs
                      to bill for higher paying RUGs. These SNFs were more likely to bill for
                      ultra high therapy and for high ADL scores than other for-profit SNFs. In
                      addition, for-profit SNFs owned by large chains had longer average
                      lengths of stay than other types of for-profit SNFs.

                      For-profit SNFs owned by large chains were also much more likely to bill
                      for higher paying RUGs than the three types of nonprofit SNFs. In
                      addition, these for-profit SNFs were more likely to have longer lengths of
                      stay than each type of nonprofit SNF. See Appendix F for more
                      information about nonprofit SNFs.

                                 Table 3: Billing by For-Profit SNFs, 2008
                                                                                                         SNFs Owned       SNFs Owned
                                                                               Independently                by Small         by Large
                                                                                 Owned SNFs                   Chains           Chains
                                                                                         (n = 3,678)        (n = 4,579)      (n = 2,046)

                                 Percentage of RUGs
                                 for ultra high therapy
                                                                                                   28%           29%              43%

                                 Percentage of RUGs
                                 with high ADL scores
                                                                                                   33%           34%              38%

                                 Average length of stay                                    28 days           29 days          31 days

                                Source: OIG analysis of Part A SNF claims, 2010.


                      It is also worth noting that the billing by the for-profit SNFs purchased by
                      large chains changed soon after the SNFs were acquired. Between
                      2006 and 2008, nine large for-profit chains acquired a total of 159 SNFs. 30
                      In all nine chains, the percentage of RUGs for ultra high therapy
                      increased in the newly acquired SNFs. Notably, for three chains, the
                      increase was at least 9 percentage points. In eight chains, the percentage
                      of RUGs with high ADL scores also increased, with three chains having an
                      increase of more than 5 percentage points. Finally, in six chains, the


                      30 The number of SNFs acquired by the large chains ranged from 1 to 67. Note that
                      1 of the 10 large chains did not acquire any SNFs during this period.



OEI-02-09-00202       QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                                 13
    F   I N D I N G     S


                       average lengths of stay in the newly acquired SNFs increased, with the
                       average increases ranging from 1 to 15 days.



                                                        Some SNFs billed much more frequently
           A number of SNFs had questionable
                                                        for higher paying RUGs than other SNFs.
                               billing in 2008          Some SNFs also had unusually long
                       average lengths of stay, compared to those of other SNFs. These billing
                       patterns indicate that certain SNFs may be routinely placing beneficiaries
                       into higher paying RUGs regardless of the beneficiaries’ care and resource
                       needs or keeping beneficiaries in Part A stays longer than necessary.
                       Notably, a number of SNFs used ultra high therapy much more frequently
                       than other SNFs. For three-quarters of SNFs, up to 39 percent of their
                       RUGs were for ultra high therapy. In comparison, for the top
                       1 percent of SNFs, at least 77 percent of their RUGs were for ultra high
                       therapy. Similarly, for three-quarters of SNFs, up to 43 percent of their
                       RUGs had high ADL scores. In comparison, for the top 1 percent SNFs, at
                       least 76 percent of their RUGs had high ADL scores. Additionally, while
                       the average lengths of stay were up to 34 days for three-quarters of SNFs,
                       the top 1 percent of SNFs had average lengths of stay of at least 48 days.
                       See Appendix G for more information about the distribution of these three
                       measures.

                       A total of 348 SNFs were in the top 1 percent using at least one of the
                       measures discussed above. None of these SNFs had beneficiary
                       characteristics that indicated a need for such extensive use of ultra high
                       therapy or RUGs with high ADL scores or longer lengths of stay. The vast
                       majority of these SNFs were for-profit (309 SNFs), and over 50 of these
                       were owned by four for-profit chains. Finally, 19 of the 348 SNFs were in
                       the top 1 percent for 2 measures and 1 was in the top 1 percent for all
                       three measures. Most of these 20 SNFs were in the top 1 percent both for
                       RUGs for ultra high therapy and RUGs with high ADL scores.




OEI-02-09-00202        QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S   14
           R E C O M M E N D A T I O N S

                    We found that SNFs increasingly billed for higher paying RUGs from
                    2006 to 2008. Specifically, payments to SNFs for ultra high therapy
                    increased by nearly 90 percent, or $5 billion, from 2006 to 2008. We also
                    found that RUGs for high levels of assistance with daily activities
                    increased. This shift toward higher paying RUGs did not appear to be the
                    result of changes in beneficiary characteristics, such as age and diagnosis.

                    Additionally, we found that for-profit SNFs, particularly those owned by
                    large chains, were more likely to bill for higher paying RUGs than
                    nonprofit and government SNFs. Furthermore, we identified a number of
                    SNFs with questionable billing, which indicates that some SNFs may be
                    routinely placing beneficiaries into higher paying RUGs regardless of the
                    beneficiaries’ care and resource needs or keeping beneficiaries in Part A
                    stays longer than necessary.

                    Taken together, these findings raise concerns about the potentially
                    inappropriate use of higher paying RUGs, particularly ultra high therapy.
                    The findings also indicate that the current payment system provides
                    incentives to SNFs to bill for ultra high therapy and for high levels of
                    assistance when these levels of care may not be needed. We recognize that
                    CMS is making several changes to the RUGs in FY 2011. However, more
                    needs to be done to reduce the potentially inappropriate and significant
                    increases in payments for ultra high therapy and other higher paying
                    RUGs.

                    We recommend that CMS:
                    Monitor overall payments to SNFs and adjust rates, if necessary
                    CMS will increase the number of RUGs in FY 2011 and intends for this
                    change to remain budget neutral. CMS should vigilantly monitor overall
                    payments to SNFs and adjust RUG rates annually, if necessary, to ensure
                    that the changes do not significantly increase overall payments.
                    Change the current method for determining how much therapy is needed to
                    ensure appropriate payments
                    The amount of therapy that the SNF provides to the beneficiary during
                    the look-back period largely determines the amount that Medicare pays
                    the SNF. CMS should consider several options to ensure that the amount
                    of therapy paid for by Medicare accurately reflects beneficiaries’ needs.

                    To more accurately predict these needs, CMS should consider requiring
                    each SNF to use more information about the spell of illness that qualified
                    a beneficiary for the SNF stay. For example, a SNF could use the



OEI-02-09-00202     QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S   15
    R   E C O     M M E N D A T          I O N                  S


                      beneficiary’s hospital diagnosis and other information from the hospital
                      stay to better predict the beneficiary’s therapy needs.

                      CMS should also consider requiring SNFs to independently verify
                      beneficiaries’ therapy needs. For example, therapists with no financial
                      relationship to the SNF could determine the amount of therapy needed
                      throughout a beneficiary’s stay. These changes would limit the ability of
                      SNFs to bill for more therapy than is appropriate.

                      CMS should also consider developing guidance that specifies the types of
                      patients for whom each level of therapy, including ultra high therapy, is
                      appropriate. This guidance could include various clinical scenarios as well
                      as a list of hospital diagnoses that are appropriate for each level of
                      therapy. This information would help ensure that appropriate amounts of
                      therapy are provided to beneficiaries and provide Medicare contractors
                      with more concrete guidance to review claims for potential fraud and
                      abuse.
                      Strengthen monitoring of SNFs that are billing for higher paying RUGs
                      CMS should instruct its contractors to monitor SNFs’ billing for higher
                      paying RUGs using the indicators discussed in this report. Specifically,
                      the contractors should determine for each SNF: (1) the percentage of
                      RUGs for ultra high therapy, (2) the percentage of RUGs with high ADL
                      scores, and (3) the average length of stay. CMS should develop thresholds
                      for each of these measures and instruct contractors to conduct additional
                      reviews of SNFs that exceed them. If SNFs from a particular chain
                      frequently exceed these thresholds, then additional reviews should be
                      conducted of the other SNFs in that chain.

                      Contractors should use this information to target their efforts to more
                      effectively identify and prevent inappropriate billing. Contractors could
                      conduct medical reviews of a sample of claims from SNFs that exceed
                      these thresholds. Contractors could use their findings to recover
                      inappropriate payments, to place certain SNFs on prepayment review, and
                      to initiate fraud investigations.

                      CMS should also establish explicit criteria regarding appropriate use of
                      grace periods and instruct contractors to monitor SNFs’ use of grace
                      periods.
                      Follow up on the SNFs identified as having questionable billing
                      In a separate memorandum, we will refer the SNFs that we identified as
                      having questionable billing to CMS for appropriate action.



OEI-02-09-00202       QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S   16
    R   E C O     M M E N D A T          I O N                  S



                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with three of the four recommendations. In general, CMS
                      stated that changes to the SNF prospective payment system initiated in
                      FY 2010 will result in more accurate payments to SNFs. OIG, however,
                      remains concerned that further changes, as we recommended, are
                      necessary to reduce potentially inappropriate SNF payments.

                      In response to our first recommendation, to monitor overall payments to
                      SNFs, CMS concurred and stated that it would assess the impact of the
                      recent changes on overall SNF payments as data became available and
                      would expect to recalibrate RUG rates in future years, as appropriate.

                      In response to our second recommendation, to change the current method
                      for determining how much therapy is needed, CMS did not concur but
                      stated that it is committed to pursuing additional improvements to the
                      SNF payment system. CMS noted several concerns with relying on
                      information from the beneficiary’s hospital stay, such as the diagnosis and
                      therapy utilization, to determine the beneficiary’s therapy needs during a
                      SNF stay. It further noted that it has several initiatives designed to
                      consider the utilization of therapy services in different settings.

                      In response to our third recommendation, to strengthen monitoring of
                      SNFs, CMS concurred and stated that it would determine whether
                      additional safeguards, including thresholds, shall be put in place by the
                      Medicare contractors to target their efforts to identify and prevent
                      inappropriate billing. Further, CMS noted that it would share the
                      information with the appropriate Medicare contractors to consider the
                      issues identified in this report when prioritizing their medical review
                      strategies and other interventions.

                      Finally, in response to our fourth recommendation, to follow up on the
                      SNFs identified as having questionable billing, CMS concurred and stated
                      that it would forward the list of SNFs with questionable billing to the
                      appropriate contractors.

                      While we recognize CMS’s intent to monitor overall payments to SNFs, we
                      remain concerned about adjusting rates in a timely manner. In FY 2006,
                      when CMS increased the number of RUGs from 44 to 53, CMS intended
                      these changes to be budget neutral. CMS did not respond to significant
                      annual increases in overall payments until FY 2010.

                      We also recognize that CMS made a number of changes to the SNF
                      payment system in FY 2010 and that these changes should improve the

OEI-02-09-00202       QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S   17
    R   E C O     M M E N D A T          I O N                  S


                      accuracy of payments. However, we remain concerned that the payment
                      system continues to provide incentives to SNFs to bill for more therapy
                      than is needed. We understand CMS’s concerns about using hospital data
                      to determine the amount of therapy the beneficiary needs; however, we
                      strongly encourage CMS to pursue other options to reduce this
                      vulnerability. As we recommended, CMS should also consider: (1) using
                      therapists with no financial relationship to the SNF to determine the
                      amount of therapy needed throughout a beneficiary’s stay; and
                      (2) developing guidance that specifies the types of patients for whom each
                      level of therapy, including ultra high therapy, is appropriate.

                      The full text of CMS’s comments is provided in Appendix H.




OEI-02-09-00202       QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S   18
                 A P P E N D I X ~ A




                         Centers for Medicare & Medicaid Services
                         Timeframes for Conducting Beneficiary
                         Assessments
                                                     Last Day of Look-Back Period
                                                     (From the Date of Admission)
                        Assessment
                        Type                                      Timeframe                    Grace Period

                        5-Day                                     Day 1 to 5                        Day 6 to 8

                        14-Day                               Day 11 to 14                     Day 15 to 19

                        30-Day                               Day 21 to 29                     Day 30 to 34

                        60-Day                               Day 50 to 59                     Day 60 to 64

                        90-Day                               Day 80 to 89                     Day 90 to 94
                       Source: Centers for Medicare & Medicaid Services, Resident
                       Assessment Instrument User’s Manual.




OEI-02-09-00202        QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                19
                 A P P E N D I X ~ B



           Description of the 53 Resource Utilization Groups*

                                                                          Therapy
           RUG Category                           RUG                                           ADL** Scores           Per Diem Rate
                                                                            Level
                                                          Therapy RUGs
                                                  RUX                   Ultra high                              High           $602
                                                  RUL                   Ultra high                              Low            $529
                                                  RVX                   Very high                               High           $456
                                                  RVL                   Very high                               Low            $426
           Rehabilitation Plus
                                                  RHX                        High                               High           $387
           Extensive Services
                                                  RHL                        High                               Low            $380
                                                  RMX                    Medium                                 High           $443
                                                  RML                    Medium                                 Low            $406
                                                  RLX                         Low                                              $314
                                                  RUC                   Ultra high                            High             $511
                                                  RUB                   Ultra high                          Medium             $468
                                                  RUA                   Ultra high                             Low             $446
                                                  RVC                   Very high                             High             $411
                                                  RVB                   Very high                           Medium             $390
                                                  RVA                   Very high                              Low             $351
           Rehabilitation                         RHC                        High                             High             $358
                                                  RHB                        High                           Medium             $341
                                                  RHA                        High                              Low             $316
                                                  RMC                    Medium                               High             $328
                                                  RMB                    Medium                             Medium             $320
                                                  RMA                    Medium                                Low             $312
                                                  RLB                         Low                             High             $289
                                                  RLA                         Low                              Low             $247
                                                     Nontherapy RUGs
                                                  SE3                                                                          $362
           Extensive Services                     SE2                                                                          $308
                                                  SE1                                                                          $274
                                                  SSC                                                         High             $270
           Special Care                           SSB                                                       Medium             $255
                                                  SSA                                                          Low             $251
                                                  CC2                                                         High             $268
                                                  CC1                                                         High             $245
                                                  CB2                                                       Medium             $233
           Clinically Complex
                                                  CB1                                                       Medium             $223
                                                  CA2                                                          Low             $221
                                                  CA1                                                          Low             $207
         * RUG.
         ** Activities of daily living.




OEI-02-09-00202                    QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                          20
    A   P   P E N D          I X ~       B




                  Description of the 53 Resource Utilization Groups (continued)

                                                                        Therapy
                  RUG Category                   RUG                                             ADL Scores         Per Diem Rate
                                                                          Level
                                             Nontherapy RUGs (continued)
                                                 PE2                                                         High           $214
                                                 PE1                                                         High           $210
                                                 PD2                                                         High           $204
                                                 PD1                                                         High           $201
                  Reduced Physical               PC2                                                       Medium           $193
                  Function                       PC1                                                       Medium           $191
                                                 PB2                                                          Low           $170
                                                 PB1                                                          Low           $169
                                                 PA2                                                          Low           $167
                                                 PA1                                                          Low           $163
                                                  IB2                                                        High           $198
                                                  IB1                                                        High           $195
                  Impaired Cognition              IA2                                                         Low           $179
                                                  IA1                                                         Low           $171
                                                 BB2                                                         High           $196
                                                 BB1                                                         High           $191
                  Behavior Problems
                                                 BA2                                                          Low           $177
                                                 BA1                                                          Low           $166
             Source: Office of Inspector General analysis of fiscal year 2008 per diem rates for RUGs, 2010.
             Analysis was based on the unadjusted urban rates.




OEI-02-09-00202               QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                            21
                 A P P E N D I X ~ C



                  Table C-1: The Distribution of Beneficiaries’ Ages From 2006 to 2008
                                                                                Percentage of Part A Stays
                  Beneficiaries’ Ages at                                                                 Percentage-
                  Admission                                                    2006            2008             Point
                                                                                                          Difference*
                  Age < 65                                                     8.0%            9.6%              1.6%
                  65 ≤ Age < 70                                                7.4%            7.7%              0.3%
                  70 ≤ Age < 75                                               10.8%           10.6%             -0.2%
                  75 ≤ Age < 80                                               17.0%           15.7%             -1.3%
                  80 ≤ Age < 85                                               22.2%           21.2%             -1.0%
                  85 ≤ Age < 90                                               20.1%           20.4%              0.4%
                  90 ≤ Age < 95                                               11.0%           11.2%              0.2%
                  Age ≥ 95                                                    3.6%                               3.7%   0.1%
                   Total*                                                   100.0%                             100.0%
               * Percentages may not sum to 100 percent and may not equal the percentage-point difference
              because of rounding.
              Source: Office of Inspector General analysis of Part A skilled nursing facility claims, 2010.




OEI-02-09-00202                   QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                   22
       A      P   P E N D          I X ~      C




Table C-2: The Distribution of Beneficiaries’ Diagnoses at Admission From 2006 to 2008
                                                                                                                    Percentage of Part A Stays
Beneficiaries’ Admitting Diagnoses*                                                                                                         Percentage-
                                                                                                                   2006            2008            Point
                                                                                                                                            Difference**
Top 20 Diagnoses (International Classification of Diseases,
Ninth Revision)
V57     Care involving use of rehabilitation procedures                                                           12.1%           17.0%               4.9
V54         Other orthopedic aftercare                                                                            3.7%             4.2%               0.5
486         Pneumonia organism unspecified                                                                        4.3%             4.1%               -0.2
428         Heart failure                                                                                         4.4%             3.8%               -0.6
780         General symptoms                                                                                      3.6%             3.8%               0.2
599         Other disorders of urethra and urinary tract                                                          3.1%             3.1%               0.0
820         Fracture of neck or femur                                                                             3.4%             2.7%               -0.7
496         Chronic airway obstruction not elsewhere classified                                                   2.1%             2.0%               -0.1
            Encounter for other and unspecified procedures and
V58
            aftercare                                                                                             1.9%             1.9%               0.1
728         Disorders of muscle, ligament, and fascia                                                             1.4%             1.9%               0.5
715         Osteoarthrosis and allied disorders                                                                   2.1%             1.8%               -0.3
401         Essential hypertension                                                                                1.7%             1.7%               0.0
438         Late effects of cerebrovascular disease                                                               1.7%             1.6%               -0.2
250         Diabetes mellitus                                                                                     1.8%             1.6%               -0.3
436         Acute but ill-defined cerebrovascular disease                                                         1.9%             1.4%               -0.5
427         Cardiac dysrhythmias                                                                                  1.4%             1.4%               -0.1
682         Other cellulitis and abscess                                                                          1.4%             1.3%               -0.1
719      Other and unspecified disorders of joint                                                                 1.3%             1.3%               0.0
         Symptoms involving nervous and musculoskeletal
781
         systems                                                                                                  1.1%             1.2%               0.1
         Other ill-defined and unknown causes of morbidity and
799
         mortality                                                                                                 1.3%            1.2%               -0.1
All Other Diagnoses                                                                                               44.2%           41.1%               -3.1
  Total**                                                                                                     100.0%             100.0%
 * The diagnoses are sorted in descending order by the frequency in 2008.
** Percentages may not sum to 100 percent and may not equal the percentage-point difference because of rounding.
Source: Office of Inspector General analysis of Part A skilled nursing facility claims, 2010.




   OEI-02-09-00202                   QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                                  23
                 A P P E N D I X ~ FD



Chart D-1: Use of Ultra High Therapy for Each Age Group, by Year




                  Source: Office of Inspector General (OIG) analysis of Part A skilled nursing facility (SNF) claims, 2010.



Chart D-2: Use of Ultra High Therapy for Top 20 Admitting Diagnoses, by Year*




                  * The diagnoses are sorted in descending order by the percentage of resource utilization groups (RUGs) for ultra high
                  therapy in 2008.
                  Source: OIG analysis of Part A SNF claims, 2010.




OEI-02-09-00202                 QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                    24
                 A P P E N D I X ~ FE
                                     D

Chart E-1: Use of Ultra High Therapy for Each Age Group, by Type of SNF* Ownership, 2008




                   * Skilled nursing facility.
                   Source: Office of Inspector General (OIG) analysis of Part A SNF claims, 2010.




Chart E-2: Use of Ultra High Therapy for Top 20 Admitting Diagnoses, by Type of SNF Ownership,
2008*




                  * The diagnoses are sorted in descending order by the percentage of resource utilization groups (RUGs) for ultra high
                  therapy in for-profit SNFs.
                  Source: OIG analysis of Part A SNF claims, 2010.



OEI-02-09-00202                  QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                  25
                 A P P E N D I X ~ F




                   Billing by Nonprofit Skilled Nursing Facilities,* 2008
                                                                                  SNFs Owned
                                                Independently                                               SNFs Owned by
                                                                                      by Small
                                                  Owned SNFs                                                  Large Chains
                                                                                        Chains
                                                   (N = 2,235)                                                    (N = 179)
                                                                                    (N = 1,552)
                   Percentage of RUGs**
                                                                  17%                                20%               11%
                   for ultra high therapy
                   Percentage of RUGs
                   with high activities of                        31%                                31%               29%
                   daily living scores

                   Average length of stay                  23 days                            23 days               24 days

                  * SNF.
                  ** Resource utilization groups.
                  Source: Office of Inspector General analysis of Part A SNF claims, 2010.




OEI-02-09-00202                QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                     26
                            A P P E N D I X ~ G




 Distribution of Three Billing Measures Among Skilled Nursing Facilities, by Quartile*

  Measures                               Q1                             Q2                                              Q3                     Q4     Top 1 Percent

 Percentage of
                                                       Greater than 6                    Greater than 20                          Greater than 39
 RUGs** for ultra            0 to 6 percent                                                                                                          77 to 94 percent
                                                 percent to 20 percent              percent to 39 percent                    percent to 94 percent
 high therapy
 Percentage of
 RUGs with high                                       Greater than 23                    Greater than 32                          Greater than 43
                           0 to 23 percent                                                                                                           76 to 96 percent
 activities of daily                             percent to 32 percent              percent to 43 percent                    percent to 96 percent
 living scores
 Average length of                               Greater than 24 days                         Greater than 29                Greater than 34 days
                               5 to 24 days                                                                                                            48 to 61 days
 stay                                                       to 29 days                        days to 34 days                           to 61 days
* Q1, Q2, Q3, and Q4 are quartiles. Each quartile includes 25 percent of all skilled nursing facilities (N = 12,286).
** Resource utilization groups.
Source: Office of Inspector General analysis of Part A skilled nursing facility claims, 2010.




        OEI-02-09-00202                    QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S                                   27
                            A P PEN D                          x          H

Centers for Medicare & Medicaid Services Comments



        / 	...'.... ""
    (           ~             	
                           DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid SelVicss


        ,S'!­                                                                                       Administrator
                                                                                                    Washington. DC 20201




                         DATE:            OCT 2 8 2010
                         TO: 	          Daniel R. Levinson 

                                        Inspector General 

                                                                    /S/
                         FROM: 	        Donald M. Berwick, M.D. 

                                        Administrator 


                         SUBJECT: 	 Office ofInspector General's Draft Report: "Questionable Billing by Skilled
                                    Nursing Facilities" (OEI-02-09-00202)

                         The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review the
                         Office of Inspector General's (OIG) draft report entitled "Questionable Billing by Skilled
                         Nursing Facilities."

                         The objectives of the review were to: 1) determine the extent to which billing by skilled nursing
                         facilities (SNFs) changed from 2006 to 2008; 2) determine the extent to which billing varied by
                         type ofSNF ownership in 2008; and 3) identify SNFs that had questionable billing in 2008. The
                         DIG found that from 2006 to 2008, SNFs increasingly billed for higher paying Resource
                         Utilization Groups (RUGs) and that for-profit SNFs were far more likely than nonprofit or
                         government SNFs to bill for higher paying RUGs. In addition, the DIG found a number of
                         instances of questionable billing in 2008.

                         Like the DIG, CMS has been concerned with the increasing utilization of the highest paying
                         RUGs. In the fiscal year (FY) 2010 SNF Prospective Payment System (PPS) final rule, CMS
                         made several changes to address these concerns.

                            • 	 CMS recalibrated the nursing case-mix indexes by making a downward adjustment which
                                resulted in a $1;05 billion decrease in aggregate payments for FY 2010.
                            • 	 CMS finalized the Resource Utilization Group Version 4 (RUG-IV) classification
                                system, which provides comprehensive changes to the SNF PPS.
                            • 	 CMS finalized the Minimum Data Set Version 3.0 CMDS 3.0) assessment instrument.

                         The CMS believes that the recent changes to the MDS 3.0 coding requirements and
                         implementation ofthe RUG-IV classification system will result in more accurate SNF payment,
                         including reallocation ofpayrnents from therapy to medically complex conditions. We believe
                         implementation of the RUG-IV classi.fication system will improve payment accuracy, incentivize
                         access to care for the sickest patients, and significantly reduce program vulnerabilities. CMS




OEI·02·09·00202                           QUESTIONABLE BILLING BY SKILLED NURSING FACILITIES                                                   28
    A   P   P E N D   I X ~    H




OEI-02-09-00202       QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S   29
    A   P   P E N D   I X ~    H




OEI-02-09-00202       QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S   30
           A C K N O W L E D G M E N T S



                    This report was prepared under the direction of Jodi Nudelman, Regional
                    Inspector General for Evaluation and Inspections in the New York
                    regional office, and Meridith Seife, Deputy Regional Inspector General.

                    Judy Bartlett and Judy Kellis served as the team leaders for this study.
                    Other principal Office of Evaluation and Inspections staff from the New
                    York regional office who contributed to the report include
                    Christine Moundas and Rachel Siman; central office staff who contributed
                    include Kevin Farber and Sandy Khoury.




OEI-02-09-00202     QUESTIONABLE BILLING   BY   S K I L L E D N U R S I N G FA C I L I T I E S   31
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
